Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  PATERNITY ESTABLISHMENT

  Notification of Rights And Responsibilities For
      Voluntary Paternity Acknowledgment




                         JUNE GIBBS BROWN
                          Inspector General

                              JULY 1999
                            OEI-06-98-00051
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Dallas Regional Office prepared this report under the direction of Chester B. Slaughter,
Regional Inspector General, and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

REGION                                              HEADQUARTERS

Blaine Collins
                                      Alan Levine, Program Specialist
Ruth Ann Dorrill
                                    Linda Hall
Marnette Robertson

Clark Thomas, Ph.D.

Nancy Watts

Lisa White


FIELD

Lucille Cop
Vincent Greiber
Ianna Kachoris
Thomas Purvis
Graham Rawsthorn

      To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
             Notification of Rights and Responsibilities for
                Voluntary Paternity Acknowledgment
PURPOSE

This report describes State practices in providing written and oral notification of rights and
responsibilities to parents who voluntarily acknowledge paternity.

RESULTS IN BRIEF

We found States have made serious efforts to provide written and oral notification to both mothers
and putative fathers. Acknowledgment forms include written explanation of parental rights and
responsibilities, and 35 State child support agencies believe that most parents who acknowledge
paternity outside the hospital setting are given oral notification. Local child support workers
appear largely capable and willing to give oral notice, and have begun to view this service as a
routine part of their jobs.

Some offices within vital records agencies and other alternative acknowledgment sites, however,
are still unaware of this obligation. Additionally, child support and vital records agency staff
express concern that parents who pick up forms, but sign them outside their offices, do not receive
oral notice and may not understand what they are signing. Significant differences exist among
States in the substance of parental rights and responsibilities, such as the presumption of custody
and right to genetic testing.

We make recommendations on how OCSE might improve State efforts to ensure both written and
oral notification to all parents considering voluntary paternity acknowledgment.

BACKGROUND

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 requires States to
simplify and expedite the paternity establishment process and encourage establishment for both the
welfare and general populations. As part of this administrative process, the new law requires that
the mother and putative father be given notice, both orally and in writing, of the alternatives to,
legal consequences of, and rights and responsibilities arising from the signed acknowledgment, and
that the father’s name not be added to the birth certificate without a signed acknowledgment of
paternity. In order to broaden the availability of the voluntary acknowledgment process, States are
allowing parents to sign forms at sites other than the child support office and submit forms by mail.
While written notification is typically printed on the back of the acknowledgment forms, because
parents may acknowledge at a number of different sites or by mail, State child support enforcement
agencies may have difficulty ensuring oral notification of rights and responsibilities.




                                                   1

According to regulations, this oral notice may be given through the use of video or audio
equipment and must include the alternatives to, legal consequences of, and rights and
responsibilities of acknowledging paternity.1 In addition, the description must ensure that due
process safeguards are afforded (notice of right to a hearing) and that any rights due to minor
parents be described to them. Federal Financial Participation funds are available for developing and
providing to hospitals and other entities written and audiovisual materials about paternity
establishment and forms necessary to voluntarily acknowledge paternity.

Welfare reform legislation promotes greater use of voluntary acknowledgment procedures, and
encourages administrative resolution of paternity through this “simple, civil process.” Yet, issues as
important as parenthood have traditionally been resolved through the courts. The communication
of the rights and responsibilities that accompany acknowledgment is crucial in supporting the legal
validity of voluntary paternity acknowledgments and the credibility of these increasingly
administrative practices. In our study of paternity establishment practices, we asked both State and
local child support agencies, as well as vital records offices, their perceptions regarding the
frequency of oral notification.2 We also gathered information about barriers to providing oral
notice, strategies States are employing to meet this requirement, and what constitutes these rights
and responsibilities in each State.

There has been some anxiety among State and Federal policymakers about meeting the oral
notification requirement and addressing any resulting issues of liability. The following findings
provide a snapshot of current practices and perceptions, and are offered to assist OCSE in
evaluating early implementation of this new welfare reform policy.

This study was conducted in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.

FINDINGS

Thirty-five State Child Support Agencies Believe Most Parents Who Acknowledge Paternity
Receive Oral Notice, Primarily Through Discussion With Local Child Support Staff.

State child support enforcement agencies in 35 States estimate that most parents who acknowledge
outside the hospital receive oral notification of their rights and responsibilities. About a third of this
group even claim that all parents receive such notice. Acknowledgments that occur outside
birthing hospitals typically take place in settings such as local child support agencies, vital records
offices or alternative sites which serve the welfare population.3 The capability of staff to provide
adequate notification of rights and responsibilities seems to vary depending upon the type of office
or agency. Understanding and commitment to the oral notification requirement appears stronger,
of course, in child support offices than in other peripheral agencies. For example, when asked to
rate the ability and effort of vital records agency staff in providing oral notification of rights and
responsibilities, 32 State child support agencies rate staff as good or excellent, while the remaining
19 believe vital records staff complete this task fairly or poorly.


                                                    2

Most State acknowledgment forms provide a written notice of rights and responsibilities on the
back of the form or on an attachment. Oral notification, however, requires that staff read or discuss
rights and responsibilities when distributing the forms, or arrange for clients to watch a videotape or
listen to an audiotape explaining the material. States may also establish a phone recording so that
clients have the opportunity to dial-in for oral notification.4 By far, the majority of offices (50 of 51
State child support agencies and 96 percent of local child support
office respondents) rely primarily on one-on-one discussions between a staff member and the client
to complete oral notification. Ten State child support offices report using videotapes in addition to
personal contact, while five more indicate they already have a phone recording, and one additional
State uses audiotapes. A few State and local child support offices also report conducting periodic
group training sessions for clients. Two offices in the Dallas area, for example, held “paternity
days” once a month during which clients participated in workshops to lead them through the
process of voluntarily acknowledging or otherwise establishing paternity.

Oral Notice is Less Common in Vital Records Offices and Other Alternative Sites, and Staff
There as Well as in Some Local Child Support Offices May Not Understand the Requirement.

Only 27 State vital records agency respondents believe it is part of their job to provide oral
notification of rights and responsibilities to clients. Of a small number of local public assistance
offices identified by States as offering acknowledgment services, a third did not attempt oral
notification. One State vital records agency readily admitted in its survey that they do not have the
time and resources to perform this task, although it is required. Additionally, some local child
support offices appear to be confused about what constitutes oral notification. Some responded
that they did provide notice, but when asked how this notice was provided they report that they
pass out brochures or re-affirm that the notice was written on the back of the form. In visiting local
child support offices, we found that some office staff believed it unnecessary and cumbersome to
read or discuss rights and responsibilities. Typical responses from this group include the following:

       “We are required to read the whole thing with them, but sometimes, they may just
       look at it and sign.”

       “If they come in, we will give them the form and the explanation is on the back and
       ask them to read it. If they can’t read, we’ll read it. It is almost condescending (to
       explain or read their rights and responsibilities), and it does take time. I will just
       highlight the important parts sometimes.”

Local Child Support Offices Believe it is Fairly Easy to Provide Oral Notice to Parents, But
Vital Records Offices Find the Requirement More Difficult.

Seventy-one percent of local child support offices surveyed believe that it is easy or even very easy
for their staff to provide oral notification of rights and responsibilities. State child support offices
were less positive, with 24 States reporting notification is easy or very easy. Local child support
offices’ greater ease with the process may be because they generally have much more interaction


                                                    3

with clients and more opportunities to assist with paternity acknowledgment. These local child
support offices are often grateful to parents who are willing to sign acknowledgments since it is
typically an easier and faster method for establishing paternity and moving a support case into
collection. Therefore, they were eager to facilitate the acknowledgment process whether that
meant providing easy access to a notary public, offering separate signing times for
antagonistic mothers and fathers, or clarifying parental rights and responsibilities. Vital records
offices seem to have a harder time with the oral notification requirement, with only seven States
rating the process easy or very easy to administer and 20 State vital records offices claiming
notification is somewhat or very difficult to administer. One State registrar explains, “. . . it’s just
not happening in our local offices. Staff are often far removed from the objectives of establishing
paternity and have enough on their plates already just to process the forms.”

Staff Time is Sometimes Limited in Providing Oral Notice, and it is More Difficult When
Parents Pick Up Forms and Submit Them by Mail or Speak a Foreign Language.

Barriers to providing oral notification depend somewhat on where parents choose to sign their
forms. State and local child support offices, as well as vital records agencies, report concern over
parents who pick up forms but sign them outside the office. As described by one respondent,
“occasionally we have parents who carry affidavits away from hospitals, sign in front of a notary
and send it in. I’m not sure they know what they’ve done.” The professional organization for
State vital records agencies, the National Association of Health Statistics and Information Systems
(NAPHSIS), has expressed this same concern to OCSE and to our office.


              TABLE 1: BARRIERS TO PROVIDING ORAL NOTIFICATION BY STATES

                  Barrier                       State CSE           Local CSE           State Vital
                                                 Agency              Offices          Records Agency

 Parents Sign Form Away                            62%                 27%                 63%
 From Office                                    (31 States)         (26 offices)        (33 States)

 Parents Speak Foreign Language                    45%                 15%                 65%
                                                   (23)                (15)                (34)

 Staff Don’t Have Time to                          13%                  4%                 37%
 Read or Discuss                                    (7)                 (4)                (19)

 Staff Don’t Feel Like It’s                        6%                   2%                 17%
 Their Job to Read or Discuss                      (3)                  (2)                 (9)

 Staff are Uncomfortable                           4%                   0%                 35%
 Reading or Discussing                             (2)                  (0)                (18)


Table 1 shows that some problems, such as parents signing forms away from the office and foreign
language barriers, are common among all three types of offices surveyed. Other problems, such as
staff perceiving the task is not part of their job, are primarily found in vital records agencies. Local

                                                    4

child support offices, the most likely to consistently provide acknowledgment services,5 were the
most positive about the process of oral notice. Sixty-three percent of local offices see no barriers
to offering oral notification, while only 24 percent of State child support offices and 13 percent of
State vital records offices report no barriers.

Very Few Child Support Staff Report They Are Uncomfortable Providing Oral Notification.

When legislation mandated oral notification, there was concern in the child support community that
staff (both in hospitals and public service offices) would feel awkward discussing rights and
responsibilities with parents. As indicated in Table 1, however, no local child support staff report
being uncomfortable reviewing this subject with clients. However, a third of State vital records
respondents report staff discomfort. Many local child support workers report they often ask a
putative father if he is sure he is the father and discuss genetic testing options informally prior to
reading the official rights and responsibilities. If the man expresses any uncertainty, staff typically
recommend genetic testing prior to acknowledging paternity. Local workers report the following
as typical questions asked by parents when discussing rights and responsibilities:

       “What will happen if (I sign and) we are still together?”

       “How can I contact a lawyer?”

       “Do I get to share custody?”

       “How much will this mean I have to pay?”

       “Where can I get a blood test?”


During on-site visits, some staff described circumstances when clients asked them for legal advice
that was beyond their expertise. Most dialogues must be fairly simple, though, as only one State
child support agency indicated the inability of front line staff to give legal advice as a barrier to
providing adequate oral notification. Although a typical child support staff member may not answer
detailed questions, child support offices that have on-site legal staff may refer clients. One
California office we visited explained a typical case as follows:

       “We tell them to come in so we can establish paternity through POPS,6 but we have
       to make sure they fully understand what this means. We provide them with oral
       notification of the disclosure information on the form. I usually go through it and
       explain; others may just read it. Sometimes we get into a dialogue, as often they
       ask a lot of questions about just what does legally establishing paternity mean, for
       me and for the child? I feel comfortable with the oral notification process. We are
       just answering questions. We are at the level of establishing paternity, and mainly
       the cases are straightforward. We don’t give legal advice. If they have legal
       questions, we will refer them to other (legal) staff.”




                                                   5

Uniform Standards are Emerging Among States, But There Are Noteworthy Differences in
State Interpretation of Parental Rights, Particularly Regarding Custody and Genetic Testing.

By promoting State use of the voluntary paternity acknowledgment process, OCSE has enhanced
the need for careful adherence to laws protecting parental rights and due process. Following a
content analysis of State voluntary paternity acknowledgment forms and supplemental documents,
we found the following to be the most common issues covered under parental rights and
responsibilities: affirmation that signing is voluntary; opportunity for genetic testing; notice of
waiving rights to a court hearing; opportunity for rescission; special provisions for minor children;
financial obligation for child support; and right regarding custody and visitation. We sometimes
found the language used to explain rights and responsibilities to be overly complex, and are
concerned that this must hinder parent understanding. Appendix A provides examples of State
language used to explain rights and responsibilities.

The issue of greatest importance may be the waiver of the father’s right to request genetic testing.7
Most State forms remind the father that he can pursue genetic testing before signing if he is unsure
he is the father. Beyond that, some State forms clearly indicate that by signing the acknowledgment
the father is waiving his right to request genetic testing. During our on-site visits, though, a number
of caseworkers told us that their courts have sometimes chosen to disregard an acknowledgment
and order genetic testing even months after signing. State and local offices were very clear in
indicating they wanted parents to test if they had any doubt about paternity, reporting that the cost
of testing was not a large concern and that they would rather have tangible proof of paternity than a
signed acknowledgment.8

Despite general uniformity, the language used to communicate rights and responsibilities
occasionally differed for mothers and putative fathers. Appendices B and C provide examples of
gender-specific language in describing rights and responsibilities, and Appendix D compares sample
acknowledgment statements for mothers and putative fathers. Instructions targeted to putative
fathers were more likely to include detailed information about the financial responsibilities of
fatherhood, and the opportunity to receive an administrative hearing to determine paternity.

Some significant differences in State voluntary acknowledgment forms stem from State law
regarding maternal custody. A number of States, such as Massachusetts, expressly give initial
custody to the mother and indicate such on the acknowledgment form. The written rights and
responsibilities in these States typically advise the father to seek legal action to establish custody
and visitation, and remind him that acknowledgment only establishes his fatherhood and obligation
to pay support. Forty-one State child support agencies and 70 percent of local child support office
respondents (69 offices) report the mother’s fear of sharing custody is a barrier to mothers
acknowledging paternity. Therefore, although such a provision may force custody and visitation
issues into court, it may also encourage mothers to cooperate in establishing paternity since they
would no longer fear immediately sharing custody. Although our data is not definitive, the custody
issue does not appear to be a significant barrier to fathers acknowledging. Some respondents report
emphasizing this issue in particular when providing oral notification. For example, “I always just


                                                  6

say that the only rights this is giving you is signing that you’re the biological (father) for the child.
You don’t have any other rights on the child, and [custody] is something you’ve got to take care of
and you’ve got to pursue it.”

Federal regulation requires States include on the voluntary paternity acknowledgment form a
statement for parents to sign that they received oral notification of their rights and responsibilities
and understand those rights. This action meets three objectives: it appears to make staff more
confident that the client has listened to the information and understands its gravity; it potentially
allows State child support offices to track office implementation of the oral notification
requirement; and it may serve to uphold the validity of a signed acknowledgment in court.
Respondents did not appear to view the requirement of a signature as burdensome. One describes
the process simply: “If they are in our office, the workers will go over the rights and
responsibilities. We tell them about the waiver of rights, the implications of the waiver, and about
the opportunity to request a blood test. Reading these rights is not new - we have always done
this. Once we feel they understand it, we have them sign that they understand their rights.”

RECOMMENDATIONS

Encourage Outreach by Child Support Offices to Educate Service Providers About Their
Responsibility to Provide Oral Notification to Parents, and Simplify the Language Used.

As indicated above, many staff members in vital records offices and alternative acknowledgment
sites are not aware of their responsibility to provide oral notification. OCSE could improve this
situation by providing technical assistance to State child support offices for publicizing this
requirement among local agency offices. By thoroughly explaining the significance and gravity of
paternity acknowledgment to key staff within these agencies, child support agencies may reduce
resistance to accepting this additional responsibility. State child support offices should provide
simple training materials which lead staff through acknowledgment rights and responsibilities. Such
materials may have already been developed for birthing hospital staff, and may only need slight
modification. Public outreach materials should be duplicated in prominent foreign languages.
Additionally, by generally simplifying the language used to describe rights and responsibilities, child
support agencies improve the odds that both staff and parents will understand the material
provided.

Promote Use of Innovative Practices in Notifying Parents of Rights and Responsibilities.

In the years since States began efforts to increase the number of voluntary paternity
acknowledgments, child support enforcement agencies have largely streamlined acknowledgment
procedures. Since staff time at social service agencies is understandably limited, it is likely that
workers are more receptive to initiatives that do not unduly tax their limited resources. Production
of audiotapes and videotapes which recite parental rights and responsibilities eliminate the need for
staff to personally review this material and possibly ensure more thorough coverage, but there is
question about whether parents would actually use these tapes even if they were made available. If


                                                   7

the policy objective implied by the oral notification requirement is to enhance parental
understanding of their rights and responsibilities, other more interactive strategies might be more
beneficial.

One such strategy is creation of toll-free telephone lines which offer a recording of parental rights,
as well as an option to talk directly with trained child support agency staff. Appendix E contains a
portion of the Missouri voluntary acknowledgment form which tells parents they must call the
telephone message line if they did not receive oral notification. Another idea in limited use is to
include oral notification of parental rights and responsibilities in workshop sessions with parents
seeking to establish paternity or begin welfare benefits. We suggest OCSE encourage more
widespread availability of these and similar techniques which would allow for a dialogue between
staff and parent, without relying too heavily on individual staff in various social service offices.

AGENCY COMMENTS

The Administration for Children and Families (ACF) notes that OCSE has taken a number of steps
to encourage State child support enforcement offices to provide information about the oral
notification requirements including development and issuance of “legislative implementation
guides” devoted to paternity establishment. OCSE also amended the paternity establishment
regulations to require States to have in effect laws requiring that parents be given both oral and
written notice of rights and responsibilities of acknowledging paternity, and to have safeguards in
place to ensure that due process protections are afforded to both parents. Additionally, ACF notes
that OCSE tries to ensure that its own documents are written clearly and in plain English, will
encourage States to do the same, and has promoted innovative paternity establishment practices
through conferences and publication of a best practices guide and articles.

We acknowledge OCSE’s efforts to assist States in the proper implementation of voluntary
paternity acknowledgment procedures. However, our study found that some participants in
voluntary acknowledgment programs are still unaware of their responsibility to provide oral
notification. We continue to believe States may need encouragement to use innovative techniques
specifically designed to ensure parents receive oral notification of rights and responsibilities of
voluntary paternity acknowledgment.

ACF’s comments are provided in their entirety in Appendix F.




                                                   8

                                           ENDNOTES


1. OCSE Action Transmittal 99-02 (March 10, 1999).

2. We received responses from State child support and vital records offices in all 50 States and
the District of Columbia. Local child support office responses came from 99 offices within a
sample of six States: California, Georgia, Illinois, New Jersey, Texas, and Virginia.

3. In our 1997 study of hospital practices, we found that only about half of hospitals were
offering oral notification. However, data collection occurred prior to the Federal mandate
which required such notice.

4. The National Association for Public Health Statistics and Information Systems (NAPHSIS)
recently requested clarification from OCSE on the provision of rights and responsibilities at
local vital records agencies. They mentioned that many State vital records agencies do not have
walk-in service and, therefore, mail information to parents. They asked OCSE to clarify what
responsibility vital records agencies have in insuring oral notification of the rights,
responsibilities and consequences of acknowledging paternity. OCSE responded by reminding
NAPHSIS that vital records offices could use recorded phone messages in providing oral
notification.

5. One hundred percent of local child support offices which responded to our survey report
clients may voluntarily acknowledge paternity in their office.

6. POPS is the acronym for California’s Paternity Opportunity Program. Voluntary paternity
acknowledgment forms are commonly referred to by staff as “POPS.”

7. According to Sec. 466. [42 U.S.C. 666], the State is required, in a contested paternity case,
to require the child and all other parties to submit to genetic tests upon the request of any such
party, and to pay costs of such tests, subject to recoupment from the alleged father if paternity is
established.

8. For more information, please see our companion reports, Paternity Establishment: Use of
Voluntary Paternity Acknowledgments (OEI-06-98-00053) and Paternity Establishment: States
Use of Genetic Testing (OEI-06-98-00054).




                                                 9

                                         APPENDICES

                                                                                PAGE
Sample Wording of Parental Rights and Responsibilities                           A-1


Rights and Responsibilities Specific to the Mother                               B-1


Rights and Responsibilities Specific to the Putative Father                      C-1


Sample Statements of Acknowledgment for Mother and Putative Father               D-1


Sample Form Directing Parents to Call Telephone Message for Oral Notification    E-1


Agency Comments                                                                  F-1





                                                10

                                                                                    APPENDIX A

     SAMPLE WORDING OF PARENTAL RIGHTS AND RESPONSIBILITIES
Most States list parental rights and responsibilities of acknowledging paternity on their
voluntary paternity acknowledgment forms. The most common issues include:
       Affirmation that signing is voluntary

       Opportunity for genetic testing

       Opportunity for rescission of acknowledgment

       Special provisions for minor children

       Financial obligation for child support

       Rights regarding custody and visitation

Following are examples of language used on State forms in each category:
Voluntary Nature
!	     This is a legal document. Signing this form is voluntary. This form has legal
       consequences. If you do not understand those legal consequences, you may want to
       contact an attorney before signing.
!	     The mother and father have signed the Acknowledgment of Paternity of their own free
       will.
!	     You have the right to declare paternity by signing this document or you may choose to
       request genetic testing, consult an attorney, contact Child Support Enforcement, or
       have a court hearing to determine paternity.
Genetic Testing
!	     The mother and alleged father have a right to genetic testing on the issue of paternity.
       By signing the Acknowledgment they are waiving these rights.
!	     If you choose not to sign this form, the State may require the parties to submit to
       paternity testing for the purpose of determining who is the biological father of the child
       named in the form. Failure to comply with an order for paternity testing could result in
       a contempt of court citation which is an unclassified misdemeanor punishable by up to
       six months in jail and not more than a $300 fine. Failure to comply with paternity
       testing could also result in a default finding of paternity.
Rescission of Acknowledgments
!	     If either of you later change your mind about signing the form you must complete a
       form to rescind or cancel the declaration of paternity and file it with the State Office of
       Vital Records within 60 days from the date you sign this form. You can get a recission
       form from your local Family Support Division, or local office of vital statistics.
!	     Unless you can show that you signed this form because of fraud, duress, or material
       mistake, your acknowledgment can only be revoked within 60 days after the date you
       signed the form, or before initiation of an administrative or judicial action to establish
       child support for the child named in the form, whichever is earlier.


                                               A-1

                                                                                   APPENDIX A

Minor Parents
!	    A minor has the right to refrain from signing this affidavit without the signature of a
      parent, guardian, or custodial adult.
!	    In order for the affidavit to be valid if you are a minor, the affidavit shall also be
      signed by your legal guardian and shall include your social security number.
Financial Child Support
!	    When this form is completed and signed, a father and child relationship is legally
      established and the father’s name will appear on the birth certificate. With this
      relationship comes the responsibility to financially support the child. On the basis of
      this signed form, a court may order the father to pay child support and provide health
      insurance coverage for the child.
!	    Both parents must support their child from birth. If your child does not live with you,
      a court may order you to pay child support.
Custody and Visitation
!	    Signing an Acknowledgment of Paternity may be the basis for the father to establish
      custody and visitation rights to the child, and may also be the basis for requiring his
      consent prior to an adoption proceeding.
!	    You, the father and mother, have a right to know your child, the right to seek custody
      or visitation, as well as the responsibility to support your child.




                                             A - 2

                                                                                     APPENDIX B

       RIGHTS AND RESPONSIBILITIES SPECIFIC TO THE MOTHER
Below are examples of maternal Rights and Responsibilities from State voluntary paternity
acknowledgment forms:
Legal Standing of Acknowledgment
!	     I understand that my signature on the Acknowledgment of Paternity form means that I
       swear that I am the mother of the named child and that the person signing the father is
       the biological father of the child.
!	     If you and the father sign the Acknowledgment of Paternity, it will be filed with the
       [State] Department of Public Health, Vital Records Section-Paternity Registry and the
       father’s name will be placed on the birth certificate. The Acknowledgment of Paternity
       is considered a legal finding of paternity. Your child will then have a legal father.
Genetic Testing
!	     You should sign the Acknowledgment of Paternity only if you know who the father of
       your child is. If you are unsure who the father is, you should not sign the form.
       Genetic (DNA) testing may be able to establish paternity with a high degree of
       accuracy, and may, under certain circumstances, be available at state expense.
Financial Child Support Enforcement
!	     Your child will have the right to receive support from the father at least until the
       child’s eighteenth birthday.
!	     You child may be eligible for many other benefits from the father such as health
       insurance, social security, veteran’s benefits, and the right of inheritance.
Custody and Visitation
!	     I understand after paternity is established, the father has the right to request visitation
       with and custody of the child. Custody and visitation are decided in legal actions
       separate from the issues of paternity and child support.
Third-Parties
!	     Affidavits Signed by Unmarried Women: If the mother was not married at conception,
       during the pregnancy, or at birth, the name of the father may not be entered on the
       certificate of birth, unless both the mother and the father have executed affidavits
       attesting he is the father and the affidavit meets the requirements specified by statute,
       or paternity has been determined by a tribunal.
!	     Affidavits Signed by Married Women: If the mother was married at conception, during
       the pregnancy, or at the birth, the name of the husband shall be entered on the
       certificate, as the father of the child, unless the mother, the natural father, and the
       mother’s husband all execute an affidavit attesting to the paternity of the child. The
       mother, husband and father must all sign and each signature must be notarized or
       witnessed.




                                               B - 1

                                                                                    APPENDIX C

        RIGHTS AND RESPONSIBILITIES SPECIFIC TO THE FATHER
Below are examples of paternal Rights and Responsibilities from State voluntary paternity
acknowledgment forms:
Legal Standing of Acknowledgment
!	     Natural Father: The man who signs the form is acknowledging that he is the natural
       father of the child named on the form and that he assumes the paternal duty of support
       of the child.
Judicial Establishment
!	     You have the right to deny paternity and to have a trial by the Superior Court or a
       Family Support Magistrate.
Rescission of Acknowledgment
!	     The alleged father has the right to withdraw the affidavit of paternity on or before sixty
       (60) days form the date he signed the affidavit of paternity, or by the date a judicial [or
       administrative] proceeding relating to the child in which he is a party, whichever occurs
       first.
Genetic Testing
!	     You have the right to a genetic (DNA) test to determine paternity. Genetic (DNA)
       testing may be able to establish paternity with a high degree of accuracy, and may,
       under certain circumstances, be available at state expense.
Financial Child Support Enforcement
!      I understand that I will have the responsibility to provide support for my child.
!	     As the legal father of the child, you will be liable for the child’s financial support at
       least until the child’s eighteenth birthday. You may also be liable for the child’s
       medical and dental bills. If you do not support your child, a civil or criminal court
       case may be brought against you, and the court can order that your income be
       withheld.
Custody and Visitation
!	     I understand that after paternity is established I have the right to request visitation with
       and custody of the child. Custody and visitation are decided in legal actions separate
       from the issues of paternity and child support.
Third-Parties
!	     Husband (Legal Father): If an affidavit of paternity is not fully executed, the husband
       of a woman at conception, during the pregnancy, or at birth, is regarded the legal
       father, whether or not they are legally or physically separated. In this case, the
       husband’s name must appear on the birth certificate.




                                               C - 1

                                                                                    APPENDIX D

                  SAMPLE ACKNOWLEDGMENT STATEMENTS
                     OF MOTHER AND PUTATIVE FATHER
Below are examples of the statements parents voluntarily sign to acknowledge paternity:


            PUTATIVE FATHER                                          MOTHER

  I acknowledge that I am the biological              I am the biological mother of the child
  father of the child named on this                   named on this Voluntary
  Voluntary Acknowledgment of Paternity               Acknowledgment of Paternity form. I
  form. I waive my right to genetic testing.          acknowledge that the man named below is
  I have read and understand the rights               the biological father of this child. I
  and responsibilities listed on the back of          waive my rights to genetic testing. I
  this form and I understand that by signing          have read and understand the rights and
  this Voluntary Acknowledgment of                    responsibilities listed on the back of this
  Paternity, I waive these rights. I accept           form and understand that by signing this
  the obligation to provide child support as          Voluntary Acknowledgment of Paternity,
  determined under state law. I have been             I waive these rights. I accept the
  provided an oral and written explanation            obligation to provide child support as
  of my rights, responsibilities and                  determined under state law.
  implications of signing this form.


  I, being first duly sworn, acknowledge              I, being first duly sworn, acknowledge
  that I am the natural father of this child          that I am the natural mother of the child
  and I understand that execution of this             named above and that to the best of my
  document creates a presumption of                   information, knowledge, and belief,
  paternity which will affect my legal rights            is the natural father of this child; I
  under the laws of Alabama; I understand             understand that this affidavit is a legal
  that this affidavit may be used to include          document which creates a presumption
  my name as the natural father on the                that the man named above is the father of
  child’s birth certificate; I understand that        my child; I understand that this affidavit
  this document, once signed and notarized,           may be used to include the father’s name
  may be used to obtain an order of                   on the child’s birth certificate; I have
  financial and medical support and that,             received written materials that explain the
  absent a court order to the contrary, I will        rights and responsibilities that this
  be legally responsible for providing said           affidavit of paternity confers upon the
  support until the child reaches the age of          father of this child, and with an
  majority, dies, marries, or becomes                 understanding of same, I voluntarily sign
  otherwise emancipated; I understand that            this affidavit of my own free will.
  I may be responsible for payment of birth
  expenses; I have received and read or
  have had read to me written materials
  that explain the rights and responsibilities
  that signing this affidavit confers upon me
  and I understand these rights and
  responsibilities and voluntary accept
  them.




                                                 D - 1

